<html>
<title> - THE TROUBLING PATH AHEAD FOR U.S.-ZIMBABWE RELATIONS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                     THE TROUBLING PATH AHEAD FOR 
                        U.S.-ZIMBABWE RELATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 12, 2013

                               __________

                           Serial No. 113-101

                               __________

        Printed for the use of the Committee on Foreign Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

82-763 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Shannon Smith, Ph.D., Deputy Assistant Secretary, Bureau of 
  African Affairs, U.S. Department of State......................     6
Mr. Todd Amani, Senior Deputy Assistant Administrator, Bureau for 
  Africa, U.S. Agency for International Development..............    15
Mr. Arthur Gwagwa, international advocacy coordinator, Zimbabwe 
  Human Rights NGO Forum.........................................    28
Ms. Imani Countess, regional program director for Africa, The 
  Solidarity Center..............................................    53

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Shannon Smith, Ph.D.: Prepared statement.........................     9
Mr. Todd Amani: Prepared statement...............................    17
Mr. Arthur Gwagwa: Prepared statement............................    32
Ms. Imani Countess: Prepared statement...........................    56

                                APPENDIX

Hearing notice...................................................    74
Hearing minutes..................................................    75
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Statement from the Crisis in Zimbabwe Coalition.    76

 
                     THE TROUBLING PATH AHEAD FOR 
                        U.S.-ZIMBABWE RELATIONS

                              ----------                              


                      THURSDAY, SEPTEMBER 12, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 12 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith of New Jersey. The subcommittee will come to 
order.
    We are joined by the distinguished chairman of the full 
committee, Ed Royce, and I would like to yield to him such time 
as he may consume.
    Mr. Royce. Thank you, Mr. Chairman. I appreciate very much 
you holding this hearing, and of course we have another 
Zimbabwe election, another Mugabe victory through cheating and 
strong-arming and harassment, and we have seen this before. I 
have been in Zimbabwe and seen the ads run by ZANU-PF after 
they were running cars off the road and killing opposition 
candidates. And the ad shows a truck smashing into the back of 
a car saying--I think the gist of it was, ``Driving can be 
hazardous to your health, but so can voting against ZANU-PF.''
    If it hadn't been mixed with the violence on the ground, 
you wouldn't know the meaning of that ad. But after enough 
opposition candidates or people were killed--now, this is an 
election in the past, not the one we are talking about. But 
what is happening now is more consequential in this election, 
because the unity government has collapsed, the opposition 
party has been sidelined indefinitely, and ZANU hardliners are 
in control. And I mean the hardliners. I have talked to those 
who had had second thoughts, that were trying to make some 
change, but they have no input at this point.
    Mugabe now has unfettered access to all government posts 
and all state resources, and I think you can expect the graft 
and the corruption to continue if it is possible to get any 
more graft and corruption, if it can get worse.
    Unfortunately, the regional bodies aren't any help, and I 
have noticed this in the past, too, in my discussions, the 
reluctance to say anything critical under any circumstances. 
The performance of SADC, the Southern African Development 
Community, has really been a disappointment here, heralded by 
the administration at the start of the summer as a force for 
positive change in Zimbabwe.
    SADC, in my opinion, is still adding to the problem, as 
they have failed in the past to speak out and this time the 
parliamentary group assessment of the July elections, I think, 
terribly missed the mark. Miraculously, they concluded that the 
elections were--and I am going to quote from them--``a credible 
reflection of the will of the people, free and fair,'' is what 
they said, while civil society organizations that were on the 
ground that actually saw the elections, and other domestic 
observers, found rampant voter roll tampering, political 
harassment, political intimidation.
    And for those who have ever seen the results, because I was 
there on another occasion in a neighboring state, speaking with 
some of those who had been beaten, had been intimidated, poll 
watchers, election--you know, party members who were in the 
opposition, I have seen the consequences of what they have gone 
through.
    And this is so disturbing when you consider that SADC 
financially backed the group's election observer mission. So 
you would expect, you know, I mean, given SADC's past in this, 
I just really wonder, the U.S. funded basically a flawed 
assessment that Mugabe has used to legitimate his continued 
despotic rule.
    And I wrote a letter recently to Administrator Shah 
expressing my deep concern of USAID's decision to put the money 
into SADC, given their temerity in the past to speak out in any 
significant way and with regard to human rights or anything 
else in Zimbabwe.
    So adding insult to injury, SADC just elected Mugabe as the 
deputy chair of the regional body for this year and chair for 
next year. The public statements coming out of the State 
Department and our Embassy in Harare conveyed that our 
engagement and sanctions policy will depend on the actions 
taken by a new Mugabe regime, and, in particular, his cabinet 
appointments.
    Well, that is becoming clear because yesterday Mugabe swore 
in his 62-member cabinet, a recycling of old ZANU hardliners, 
the old guard, some of the most militant of the old guard, and 
the new Information Minister who was the architect of the 
sweeping law to clamp down on the media, to clamp down on press 
freedom. The new Finance Minister was formerly Justice Minister 
and responsible for the judicial crackdowns. And, frankly, he 
is already on our sanctions list.
    So in May the administration extended an olive branch and 
eased sanctions on two Zimbabwean banks and delisted three 
individuals from the sanctions list. I will be interested to 
find if the July election will cause the administration to 
reevaluate that decision, and I look forward to hearing from 
our witnesses, and look forward to hearing about what the 
administration's policy is going to be going forward.
    And as I said, as being someone who was on the ground in 
Zimbabwe in the past, and has talked to those who were 
tortured, talked to those who spent their life's work, 
Africans, who have spent their life's work trying to get 
democratic governance, only to be beaten and have their friends 
killed, it is truly distressing to me the way--the situation we 
are at right now.
    Thank you.
    Mr. Smith of New Jersey. Thank you very much, Mr. Chairman.
    Let me say to Dr. Smith and to Mr. Amani, I apologize for 
being a little bit late. Both Ranking Member Bass and I were 
meeting with a group of Nigerian lawmakers who are in town, led 
by the chairwoman of the Foreign Relations Committee in the 
House of Representatives. So, again, I apologize for that 
lateness in kicking off this hearing.
    I want to wish a good afternoon to everyone. And despite 
more than a decade of targeted sanctions, Zimbabwe has 
continued to be a major U.S. trading partner through the 
Generalized System of Preferences, even though it has been 
excluded from the African Growth and Opportunity Act.
    Chromium, platinum, and diamonds have enriched Zimbabwe's 
leaders but not its people. Zimbabwe had been one of Africa's 
leading industrial powers and agricultural producers until its 
government diminished the ability of the country to sustain its 
industrial or agricultural production.
    Illegal and disruptive land seizures resulted in political 
cronies gaining control of productive agricultural land rather 
than the Black farm workers as promised. Agricultural 
production suffered, dragging down manufacturing of 
agricultural equipment, the base of the country's industry.
    The reduction in tax revenues led to a desperate search of 
foreign funding to stabilize an economy whose inflation rate 
reached globally historic levels. Nevertheless, Zimbabwe is a 
major player in Southern Africa, even more so now that newly-
elected President Mugabe has been chosen as Vice President of 
the Southern African Development Community, or SADC, as 
Chairman Royce pointed out, and the organization's anticipated 
chairman next year.
    Facing international appeals for an end to sanctions on 
Zimbabwe, and threats from the Mugabe government of economic 
retaliation, U.S. must devise a policy that safeguards American 
interests while maintaining our support for democracy, human 
rights, good governance, and economic development.
    Today's hearing will examine how the process of policy 
formation is going now and discuss what that policy should look 
like at the conclusion of the process. The United States has 
experienced, as we all know, a troubled relationship with 
Zimbabwe, since the Southern African nation achieved majority 
rule in 1980.
    Robert Mugabe, the liberation leader who had led his 
country since 1980, has always resented that our Government did 
not support his war against the previous white minority 
government. Despite our efforts to establish a mutually 
beneficial relationship with Mugabe's government over the past 
couple of decades, his regime has spurned our hand of 
friendship and flouted international law and convention.
    Using colonial era laws as models, Mugabe's government has 
eliminated the possibility that the political opposition can 
credibly challenge his rule. It has limited the ability of the 
media to effectively report on the news of the day. It has 
restricted civil society advocates from advocating and 
verifying the many human rights violations that have taken 
place in Mugabe's Zimbabwe.
    When Congress passed the Zimbabwe Democracy and Economic 
Recovery Act of 2001, it sent out a range of aid restrictions 
requiring U.S. representatives on the boards of international 
financial institutions to vote against loans or debt 
cancellations befitting the Zimbabwean Government, pending 
fulfillment of a range of conditions based on repeal of the 
limitations on the freedoms of the people of Zimbabwe.
    Recent annual appropriations laws have also barred U.S. 
support for international loans or grants to the government, 
except to meet basic human needs or to promote democracy. 
Generally, bilateral aid is prohibited, except that pertaining 
to health, humanitarian needs, education, or macroeconomic 
growth.
    Such prohibitions are maintained unless the Secretary of 
State certifies that the rule of law has been restored, 
including respect for ownership, entitlement to property, 
freedom of speech, and association.
    However, Mugabe's August 22, 2013, inauguration marked the 
end of a 5-year period of often uneasy political power-sharing 
with the opposition and partially fulfilled reforms pursued by 
the government of national unity under the global political 
agreement. The end of the unity government means that unless a 
deal is struck with the ruling ZANU-PF party, its former 
partner in government, the opposition MDC-T party, will likely 
no longer play a role in executive branch policy-making.
    Past patterns of ZANU-PF governments, along with recent 
actions by the party officials, and the MDC-T's new 
marginalization, indicate that Zimbabwe may be entering a 
period characterized by a pattern of unilateral exercise of 
state power, potentially accompanied by a manipulation of the 
rule of law in its favor, a lack of national political 
consensus, and the absence of vehicles for alternatives to 
ZANU-PF policies, continued restrictions on the activities of 
civil society and opposition activists, including legal, 
extralegal harassment, and violence by both the police and the 
ZANU-PF supporters, and weak economic growth due to the party's 
pursuit of a nationalistic economic agenda focusing on state 
intervention in the economy.
    The Mugabe government has long blamed the United States and 
Britain for hampering its economic growth due to sanctions. But 
aside from direct aid limitations, most sanctions are targeted 
toward Mugabe and his government leadership. SADC is now 
calling for the removal of sanctions against Zimbabwe and is 
being joined by a growing international chorus that includes a 
few voices from within the Congress in the United States.
    Meanwhile, President Mugabe has threatened to punish 
Western firms operating in Zimbabwe unless sanctions are 
lifted. But questions remain about the willingness of the 
Mugabe government to take the steps necessary to rescind the 
U.S. sanctions. If Zimbabwe takes a defined stand, where does 
that leave the U.S.-Zimbabwe relationship? The administration 
has tried limited relaxation of sanctions only to be met with 
continued refusal to accept reform. Where does this leave U.S. 
policy?
    We have with us today U.S. Government officials involved in 
developing and implementing our Nation's policy toward an 
important nation in Southern Africa. We also have with us civil 
society observers who will speak to the issues before us as 
well.
    And, again, I would like to thank all of our witnesses for 
being here, taking the time to give us the benefit of their 
counsel and wisdom, and I do now yield to my friend and 
colleague Ms. Bass.
    Ms. Bass. Mr. Chair, as usual, I want to thank you for 
holding today's hearing. As a member of the Southern African 
Development Community, Zimbabwe is an important player in 
Southern Africa, politically, economically, and socially.
    I want to recognize and thank today's witnesses for their 
willingness to come before this committee and assist all of us 
in better understanding the policy opportunities and challenges 
toward engaging the Zimbabwean Government. This includes the 
opposition party, the MDC.
    For today's hearing, I want to focus my comments on two 
primary areas, good governance and economic growth. We all know 
that President Mugabe has led Zimbabwe for more than three 
decades. And recently we witnessed the power-sharing government 
between ZANU and the MDC, but the uneasy 5-year power-sharing 
government of national unity has now ended and it is unclear as 
to how the MDC will continue to play a governing role.
    There is no question that MDC's role within the larger 
government apparatus showed to the world that perhaps an 
alternative to one-party dominance was possible. As many will 
recall, the elections of '08 cast a dark shadow in Southern 
Africa, with government intimidation at many levels including 
that of journalists and opposition leaders. There was deep 
concern over whether Zimbabwe would uphold democratic 
principles in the rule of law.
    Questions remain with respect to the most recent election 
in July, as well as those in '08. The Congressional Research 
Service reports that Zimbabwe may be entering a new time, and I 
am wondering if today's witnesses can comment about that and 
tell us whether they agree. And that new time would be 
characterized by unilateral state power, which accompanies the 
manipulation of the rule of law, where is a lack of political 
consensus and the absence of pluralist institution, where 
activities of civil society organizations and opposition 
activists are restricted, and where there is weak economic 
growth.
    I recently returned from the AGOA Forum in Addis where I 
sat with African leaders eager to tell the U.S. that the 
development agenda of yesterday must be replaced by a new 
vision of trade and investment, but we all know that this can't 
be achieved if governments don't take the necessary steps to 
create investment climates that attract business capital and 
that spur trade, both regionally and globally. This can and 
must be done by strengthening institutions, but it must also be 
done by creating political space.
    Zimbabwe needs strong institutions if it is to join other 
African nations that have proven year after year that strong 
economic growth is not only possible but sustainable. Between 
'09 and 2011, Zimbabwe saw an expansion of its economy with 
strong in sectors that included mining, services, and 
agriculture, yet those trends stagnated.
    The World Bank attributes this economic slowing to poor 
agricultural seasons, binding credit constraint, fiscal revenue 
underperformance, and the slow pace of economic reforms. The 
Bank also acknowledged that slow growth was due to continued 
political uncertainty around the road map to elections 
resulting in low business confidence and other government-led 
policies.
    We know that Africa has the tools and the know-how to solve 
its own problems, and overwhelmingly I am positive about the 
continent's future, but I am also sensitive to the fact that in 
Zimbabwe, despite fairly peaceful elections, still has deep and 
persistent problems that remain unresolved. A focus on good 
governance, government accountability, creating legitimate 
space for opposition parties, and observance of human rights, 
will only strengthen Zimbabwe and its people.
    I am confident that with the support of the African Union 
and the African economic community, such as SADC, Zimbabwe's 
economic, political, and social future can be bright for all 
its people, and I look forward to today's discussion and the 
testimony from the witnesses.
    Thank you very much.
    Mr. Smith of New Jersey. I would like to now introduce our 
two distinguished witnesses from the administration, beginning 
with Dr. Shannon Smith, who was appointed Deputy Assistant 
Secretary for State in the Bureau of African Affairs in May 
2013. Prior to joining the State Department, she served as a 
Senior Policy Advisor for Africa and Global Health for the 
Senate Foreign Relations Committee from 2007 to 2013.
    As a senior staffer for Africa, she traveled widely on the 
continent leading staff delegations and accompanying the 
chairman on the Senate side on numerous trips to Sudan and 
South Sudan during the process leading up to the 2011 
referendum on independence. Prior to her work in the policy 
area, Dr. Smith was a history professor.
    We will then go to Mr. Todd Amani, who is the Senior Deputy 
Administrator of the U.S. Agency for International 
Development's Bureau for Africa. He oversees operations in the 
Bureau's Office of Development Planning, which provides 
leadership and policy outreach strategy, program analysis, and 
budget; the Office of Administrative Management staff, which 
handles personnel assignments, organizational management, and 
administrative support; and the Office of Southern Africa 
Affairs.
    Mr. Amani has been with USAID since 1987 and has served in 
Egypt, Nicaragua, Honduras, Guatemala, and most recently 
Mozambique. Before joining USAID, he was a Peace Corps 
volunteer, worked in Congress, and was a political science 
professor.
    Dr. Smith, if you could proceed.

STATEMENT OF SHANNON SMITH, PH.D., DEPUTY ASSISTANT SECRETARY, 
      BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Smith. Thank you. Chairman Smith, Ranking Member Bass, 
thank you for holding this hearing on Zimbabwe and for inviting 
me to testify before you.
    We appreciate the deep interest of this committee, and we 
are pleased to work with Congress in support of our national 
interests in Zimbabwe and the region. The seriously flawed 
Presidential and parliamentary elections of July 31 were a 
missed opportunity for Zimbabwe.
    The United States and other members of the international 
community had clearly communicated, both publicly and 
privately, a willingness to consider rolling back sanctions and 
other restrictions and charting a path toward full 
normalization of relations, if Zimbabwe demonstrated that it 
was ready to allow its deserving people to freely choose their 
next government through a fair, peaceful, and credible 
election.
    The fundamental challenge the United States faces now that 
President Mugabe has been sworn in for another 5-year term, the 
new Parliament has been seated, and a new cabinet has been 
named, is how best to put into action our long-standing 
commitment to the Zimbabwean people while maintaining a firm 
stance against those who continue to undermine democracy and 
hinder Zimbabwe's progress.
    The recent elections were a particularly acute 
disappointment because they followed some encouraging 
developments earlier this year when the parties of the former 
government of national unity agreed on a draft constitution, 
and the Zimbabwean people overwhelmingly approved it in a 
peaceful referendum.
    However, in the days and weeks leading up to the election, 
that promise faded as the electoral process was systematically 
manipulated. There were serious irregularities in the 
provision, composition, and distribution of the voters roll. 
Political parties had unequal access to state media, and the 
security sector did not safeguard the electoral process 
equitably.
    These problems were highlighted by credible domestic and 
regional observers. We were disappointed that the Southern 
African Development Community, SADC, and the African Union 
chose not to adhere to their own standards or address the 
irregularities highlighted by their observers in making their 
determination that elections were free and fair.
    Secretary Kerry and leaders from other governments noted 
the deep flaws in the process leading up to the elections and 
concluded that although generally peaceful, the elections could 
not be seen as a credible reflection of the will of the 
Zimbabwean people. Elections are a process. They are not a 
single-day event, and that process was simply too flawed to be 
credible.
    While we are all grateful that polling was not marked by 
violence this year, the absence of overt violence is not 
sufficient for the outcome to be considered legitimate. True 
democracy will come to Zimbabwe only when the Zimbabwean people 
are free to exercise the rights afforded them in their new 
constitution, free of fear and manipulation.
    President Mugabe and certain elements of his party 
conducted a sustained campaign of intimidation against civil 
society organizations, political party members, and ordinary 
citizens. They allowed partisan conduct by the Zimbabwean media 
and security sectors, and they made sure the election 
preparations tilted the playing field heavily in their favor.
    In doing so, they sent a clear signal to the people of 
Zimbabwe and the international community that they were more 
interested in retaining power at all costs than in rejoining 
the community of democratic nations.
    U.S. policy reflects the recognition that a select few in 
Zimbabwe remain committed to maintaining power and wealth at 
the expense of their people and their nation. We, therefore, 
continue to maintain targeted sanctions aimed at those who are 
actively undermining democracy in Zimbabwe, and, thus, 
depriving all its citizens of a more democratic, prosperous 
future.
    Currently, the list of specially designated nationals 
includes 113 individuals and 70 entities. In the future, we may 
add new names to the list or move others as conditions warrant. 
We want all Zimbabweans to know that the United States remains 
a friend of the Zimbabwean people and that we make a strong 
distinction between Zimbabwe's 13 million people as a whole and 
those few powerful, self-interested individuals who are 
degrading the country's future.
    There are those who argue that we should revisit our 
sanctions policy because President Mugabe has sought to use 
U.S. policy as a propaganda tool. We will not be swayed by 
attempts of President Mugabe and his party to blame Zimbabwe's 
economic misfortunes and disastrous economic mismanagement on 
the United States and other governments that maintain targeted 
sanctions on a select group of individuals and entities.
    We do, however, want to communicate our message clearly, 
and those who benefit most from the status quo--influential 
officials within the Zimbabwean Government and the defense and 
security sectors--will no doubt remain the most vocal critics 
of U.S. and other Western countries, and they will continue to 
rely on state domination of the media to perpetuate 
misperceptions about our policy.
    With the end of the unity government and the relative 
stability it had brought to Zimbabwe's economy, their looms the 
real possibility of substantial economic decline, which 
President Mugabe and his ZANU-PF party may seek to blame on 
sanctions.
    We and Zimbabwe's neighbors alike need to be prepared for 
the possible humanitarian cost of ZANU-PF's proposed policies. 
We also need to examine, while maintaining our targeted 
sanctions, opportunities for engagement with the private sector 
that are consistent with our values, policies, and interests.
    In addition to helping to stave off economic hardship for 
the people of Zimbabwe, such engagement will also provide a 
powerful counterargument to the false sanctions narrative that 
ZANU-PF seeks to waive. We must also remain supportive of civil 
society groups that advocate for strong democratic 
institutions, the rule of law, and human rights. And we will 
look for opportunities to work with elements of Parliament and 
local government as a means of strengthening democratic 
governance going forward.
    As my USAID colleague will discuss, we also need to 
continue our assistance at a humanitarian-plus level. We can 
and we should be proud of our ongoing support for Zimbabwe's 
progress in the treatment and prevention of HIV/AIDS, in 
improving the lives of small holder farmers, and creating 
opportunities for sustainable livelihoods.
    Zimbabwe's human and economic potential is enormous, and 
that makes the events of recent years and the lost 
opportunities of this election all the more tragic. U.S. policy 
remains dedicated to helping the people of Zimbabwe achieve the 
democratic, peaceful, and prosperous future that they deserve.
    Thank you for the opportunity to speak with your committee, 
and I welcome any questions you may have.
    [The prepared statement of Ms. Smith follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                              ----------                              

    Mr. Smith of New Jersey. Thank you very much, Dr. Smith.
    Mr. Amani.

     STATEMENT OF MR. TODD AMANI, SENIOR DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Amani. Chairman Smith, Ranking Member Bass, and members 
of the subcommittee, I would like to thank you for the 
opportunity to speak with you today. I appreciate your 
continued commitment to helping the people of Zimbabwe build a 
peaceful, stable, and prosperous democracy. And I would also 
like to thank my colleagues at the State Department for their 
active leadership on these issues as well.
    Since the political and economic crisis of 2008, Zimbabwe 
has been in the process of a protracted and difficult 
transition toward economic normalcy and greater democracy. But 
the nation's intermittent progress has often been matched by 
setbacks which you have noted.
    While the economy has stabilized, the recent deeply flawed 
elections represent a disturbing political and democratic 
departure from the cautious optimism we had after the last 
elections which resulted in the formation of the government of 
national unity, and the overwhelming endorsement by the 
Zimbabwean people of a new constitution.
    I would note in response to Chairman Royce's comments about 
our support for SADC that we ended up not financing SADC 
observation effort; another donor supported that. We focused 
our attention on domestic observation and mobilizing voters. 
And it is that domestic observation that made it clear that 
this year's elections were neither credible nor free nor fair. 
And they raise concerns about how the United States should 
continue to support democratic and economic development in 
Zimbabwe.
    However, our commitment to the well-being of the Zimbabwean 
people has not changed. Even if opportunities to pursue broad 
economic and political reform recede, it is in the interest of 
the United States to maintain our commitment to helping the 
Zimbabwean people avert crises and live healthier lives.
    As a new government is formed, the United States is 
strategically looking to build on the strong platform of the 
new constitution and identify opportunities to enhance 
transparency, to open democratic spaces, and to support 
Zimbabweans with goodwill, both inside and outside of its 
institutions, including the nation's next generation of 
democratic leaders.
    At the same time, USAID will watch for signs of economic 
and political backsliding, political repression, and policies 
that could lead to the types of interrelated shocks and crises 
that have engulfed Zimbabwe in the past and could pose a threat 
to regional stability.
    Going forward, our assistance will focus primarily on 
humanitarian-plus approaches that address key concerns such as 
food security, nutrition, economic resilience, and health, 
while helping to promote good governance and economic growth. 
Through these same channels, USAID will seek out and act upon 
opportunities to influence policy formation and help develop 
regulatory systems to support Zimbabweans in their quest for 
economic prosperity and democratic governance.
    As Zimbabwe transitions to a new administration in the 
aftermath of the flawed elections, USAID will closely monitor 
how its leaders address the challenges facing Zimbabwe, and 
whether they turn their campaign pledges into concrete 
policies, and which priorities will be addressed first.
    We will follow how the market responds to political 
developments, signs of political repression, and indication of 
the politicization of humanitarian assistance. These are all 
factors that could influence our approach to assistance. They 
will not, however, affect our commitment to stand by the 
Zimbabwean people, and through our assistance programs offer 
support to those Zimbabweans who are committed to a more 
democratic and prosperous Zimbabwe.
    Thank you, Mr. Chairman, and Ranking Member Bass, and other 
members of the subcommittee for your continued commitment that 
you have shown to the people of Zimbabwe, and your support for 
reform within their government.
    I welcome any questions you may have.
    [The prepared statement of Mr. Amani follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                              ----------                              

    Mr. Smith of New Jersey. Thank you very much, Mr. Amani.
    Let me begin, Dr. Smith, with you, if I could. The 
administration decided to loosen the sanctions on the two 
Zimbabwean financial institutions as a means of encouraging 
government reforms, and sadly that has not happened. Do you 
propose to reinstate and reinstitute those sanctions against 
those institutions?
    Ms. Smith. We are certainly in the midst of a review of our 
sanctions policy.
    Mr. Smith of New Jersey. Okay.
    Ms. Smith. In light of the licenses that were granted to 
the two institutions, including the agricultural bank, the goal 
there was to try and promote access of Zimbabwean small farmers 
and others to credit and other issues, other forms of support. 
We don't think that--at the moment we are not planning to 
impose or remove those licenses, thinking that the objectives 
there are still constant, that we still want to support rural 
livelihoods and other factors.
    But I would note that the biggest inhibitor to raising 
capital and to economic progress in general are much more sort 
of the policies and pronouncements of ZANU-PF than any of our 
sanctions.
    Mr. Smith of New Jersey. You described or suggested that 
you clearly communicated international warnings of continued or 
even expanded sanctions if the July 31 elections were not 
deemed free and fair. How did those admonitions get conveyed, 
and how did Mugabe react at the time? And, obviously, I think 
we know how he reacted since.
    Ms. Smith. Earlier this summer, former Ambassador Andrew 
Young had traveled to Zimbabwe. He had met with President 
Mugabe, and he had conveyed to him the idea that the 
opportunity was before them for a new relationship if they 
chose to seize it by having a free and fair election. That 
message was conveyed very consistently.
    We conveyed the same message publicly and privately to 
members of SADC, to other countries with interest in Zimbabwe, 
and to the government itself through our Embassy and through 
other officials.
    Mr. Smith of New Jersey. Thank you.
    Mr. Amani, you did partly I think answer the chairman's 
question, Chairman Royce. But has there been any reassessment 
given to SADC funding in other areas based on their performance 
here? What is our sense of that organization now as a result of 
this?
    Mr. Amani. Shannon can probably help answer some of that in 
terms of our relationship with SADC in a broader sense.
    Mr. Smith of New Jersey. Okay.
    Mr. Amani. As I mentioned, we ended up not using U.S. 
taxpayer money to fund the SADC observation effort. I think we 
feel that SADC, in the future, is an important institution for 
many reasons, including economic reasons and their efforts at 
economic integration. It looks like we have some work to do in 
terms of their observation efforts, and we'd be happy to work 
with them to improve that.
    Mr. Smith of New Jersey. Okay.
    Ms. Smith. I would just echo Todd's comments. I don't think 
we pulled any punches in expressing our disappointment about 
either the elections themselves or the evaluation of them. At 
the same time, SADC is an important institution, and we all 
have a very strong vested interest in economic stability and 
political freedom in Zimbabwe, and we hope that we all engage 
in that.
    Mr. Smith of New Jersey. Mr. Amani, you state that the 
USAID intends to continue to ensure access to basic health 
care. This is the same government that in '05 shut down HIV/
AIDS clinics in so-called squatter communities, turning 
patients into refugees in other countries with HIV/AIDS that 
could no longer be treated with the usual drug therapy. And I 
am wondering, are there any signs that the government will 
allow that kind of intervention by USAID?
    Mr. Amani. We are going to be watching for signs of those 
kinds of things. We have been working----
    Mr. Smith of New Jersey. But nothing so far, right?
    Mr. Amani. Nothing that we have seen so far. We have been 
working with technically competent people within the Ministry 
of Health for many years across the administrations. We expect 
that we will be able to continue working with those technocrats 
who are well educated and very competent in the future.
    Mr. Smith of New Jersey. Let me ask you just a question--
one of our witnesses later on will be Imani Countess from the 
Solidarity Center on behalf of the AFL-CIO. And in that 
testimony, it is pointed out that the ZCTU is comprised of 30 
affiliates, over 150 workers. Are any modest union rights that 
have been achieved in Zimbabwe at risk with Mugabe now getting 
a fresh--what he will perceive to be--mandate?
    Mr. Amani. I will have to get back to you on more 
information about unions. This is the kind of thing that we 
will be monitoring as we move forward in our programming to see 
what happens. At this point, it is very early in the 
administration.
    Mr. Smith of New Jersey. Do you have any idea when the 
reassessment of the--and, Dr. Smith, I guess this would be to 
you--when that policy may be forthcoming?
    Ms. Smith. It is an ongoing conversation, and I would also 
note that the list of specially designated nationals--it is a 
living document. It is intended to reflect the realities on the 
ground and to be aimed at those who are undermining democracy 
in Zimbabwe. So it is a living organism, if you will.
    Mr. Smith of New Jersey. What is the reaction, and what is 
the status now of the faith community, the churches, the 
believes, the clerics? Are they at risk? Are they critical of 
Mugabe? Or are they trying to find some way to preserve what 
human rights they currently possess, for them and for the 
people?
    Ms. Smith. I think both the faith-based community and civil 
society more broadly certainly have expressed concerns. At the 
same time, you know, these are people of remarkable courage and 
fortitude that they have demonstrated over the years.
    From the perspective of the U.S. Government, I know these 
are people with whom our Embassy and our representatives here 
in Washington want to engage with very closely, and we will 
rely on, you know, sort of them but also this is a measure of 
accountability for the government. What happens with political 
space, what happens with freedom of religion, what happens with 
members of the faith-based community, that is the measure of 
the government as it moves forward.
    Mr. Smith of New Jersey. Are there any bills or pieces of 
legislation that you see or decrees that you know of that might 
be a further restriction of religious freedom?
    Ms. Smith. Not that I am aware of.
    Mr. Smith of New Jersey. Okay. Let me just ask one final 
question. I remember Andy Natsios once telling me how appalling 
it was that Mugabe could take what is a bread basket country 
that was exporting to its neighbors, and turn it into a food-
deprived country in need of imports of foreign aid that happens 
to be food.
    Are there any indications that you see, any early warning 
signs--Mr. Amani, this might be to you--that might suggest, you 
know, there is any crisis on the horizon, food-wise?
    Mr. Amani. There has been a recent vulnerability assessment 
that has been undertaken in Zimbabwe that indicates that the 
number of people who will be in need of humanitarian assistance 
over the next year, over the next--the hunger period, which 
runs from about now through March, is going to be significantly 
higher than it was a year ago.
    About a year ago we thought that 1.6 million people were 
going to be in need of humanitarian assistance. It looks like 
2.2 million will now be in need of humanitarian assistance. 
Some of that is due to climatic conditions in drought, some of 
it is due to poor performance of the agricultural sector, and 
some of it has to do with the fact that Zimbabwe has used up 
many of its reserves in responding to previous problems. So it 
does look like it is getting worse in the short term.
    Mr. Smith of New Jersey. Sure. How will that be met? Will 
the international community rally, including ourselves, to meet 
that humanitarian need? And is there anything specific, 
tangible, that you can convey to us, so that we have a sense of 
what our responsibility should be in the Congress?
    Mr. Amani. Right. We are prepared--we are providing 
assistance through our Office of Foreign Disaster Assistance--
--
    Mr. Smith of New Jersey. Right.
    Mr. Amani [continuing]. And through our Food for Peace 
programming. So we have already offered $15 million in 
assistance. We have ongoing programs in the areas affected by 
the drought to improve economic resilience, and we will be 
looking at further assistance down the line.
    Mr. Smith of New Jersey. Okay. How much do we provide--food 
aid?
    Mr. Amani. We have a $20 million Food for Peace Program. We 
have offered $15 million in more immediate humanitarian 
assistance. And we have our ongoing agricultural promotion Feed 
the Future kinds of activities.
    Mr. Smith of New Jersey. Now, the 1.6 million to 2.2 
million, when will they get the 2.2 million people at risk or--
--
    Mr. Amani. This is the hunger period when the stocks are 
low for families and they are waiting for the new harvest. So 
this is a period, as I said, starting about now, that runs 
through March.
    Mr. Smith of New Jersey. March.
    Mr. Amani. And this is the period that we need to be 
active. We are working very closely with other entities, 
including the World Food Program, and other international 
organizations, NGOs, and with other donors to respond to it.
    Mr. Smith of New Jersey. Does the World Food Program have a 
specific appeal out on behalf of the----
    Mr. Amani. Yes.
    Mr. Smith of New Jersey.--600,000?
    Mr. Amani. Yes.
    Mr. Smith of New Jersey. When did that go out?
    Mr. Amani. I am not sure.
    Mr. Smith of New Jersey. Okay. I appreciate that. Thank you 
very much.
    I would like to yield to Ms. Bass.
    Ms. Bass. Thank you very much, Mr. Chair.
    This is a general question for both of you. Given our 
relationship with Zimbabwe, I just wonder how you function 
there, you know, and specifically for you, Dr. Smith, I am 
wondering if the President's initiative around young leaders, 
if there are leaders that we are engaging with in Zimbabwe, 
and, if so, how?
    And then, you know what I mean? In other words, the 
conditions in which they must function? And then in terms of 
USAID, the same question in terms of, how are you able to 
function in what I imagine would be a rather hostile 
environment?
    Ms. Smith. I will leave the operational side more to Todd, 
but, I mean, Zimbabwe, as you know, like much of Southern 
Africa, has an enormous youth population. It is a very vibrant 
society. It is an increasingly technologically wired up 
society.
    And Ambassador Wharton there is doing a terrific job of 
reaching out to youth and to Zimbabweans in general through a 
variety of communications.
    Ms. Bass. He hasn't blocked the Internet?
    Ms. Smith. No. We still have communications there, and it 
is--you know, as I believe Todd said in his opening statement, 
it is the next generation of democratic leaders, too, that we 
very much want to nurture. It is not an easy political 
environment, but it is--that makes the work even more 
important.
    Ms. Bass. Why do you think he allows that? I mean, why do 
you think he allows the Internet and hasn't taken steps?
    Ms. Smith. I don't think I could speculate on the motives 
there.
    Ms. Bass. Okay.
    Mr. Amani. I will note that when I visited Zimbabwe in 
March I sat in on what we call a listening session with young 
leaders in Zimbabwe, and I must say it was one of the most 
moving experiences I have had was to hear from them, all of 
whom had faced at some point some sort of an issue, whether 
they were dealing with HIV/AIDS or had experienced repression 
based on their political activism, or for whatever reason.
    But they had responded to that by joining or forming an 
organization that addressed those issues, and joining with 
other young Zimbabweans to speak out and be clear about what 
they were facing and what they--their vision for Zimbabwe in 
the future. So we owe them our support over time, and we are 
hopeful that through President Obama's Young African Leaders 
Initiative we can provide support to youth.
    As Shannon mentioned, it is not an easy place to work when 
it is difficult to work with some institutions or we don't--we 
see--don't see the responsiveness to important information.
    One of the things we have been trying to do on the 
macroeconomic side, for example, is provide very solid data on 
what is happening in the economy, so that it can serve as a 
solid basis for decision-making by economic policymakers. And 
we are hopeful that that kind of good data can be used by the 
current government as well.
    Ms. Bass. Do you know if those young leaders that we are 
working with, are they at risk? Do they experience harassment, 
or does it fly under the radar?
    Mr. Amani. Some of them have received--have been victims of 
harassment. Most of them have had some difficulty in operating 
like you would like to. But as I said, they seem to have been 
able to rise above that and continue their work and engage more 
broadly with other youth in trying to improve the conditions in 
Zimbabwe.
    Ms. Bass. And do you see him, from his point of view, 
having a group of younger leaders that he is grooming? I mean, 
he is 89. He is, you know, at some point----
    Mr. Amani. I couldn't comment on that. I don't know.
    Ms. Bass. What did you say?
    Mr. Amani. I couldn't comment on that. I don't know.
    Ms. Bass. You don't know?
    Mr. Amani. No.
    Ms. Smith. I would note that cabinet appointments did not 
necessarily reflect a youth movement, but----
    Ms. Bass. He appointed his peers? Okay. Thank you.
    You mentioned the food program, Mr. Amani, and I was 
wondering if you could describe a little more about that. Is 
this food that we export? Is it from the United States? Do we 
buy locally and provide it in Zimbabwe? Or what are the 
specifics?
    Mr. Amani. I am not sure exactly how we do it in Zimbabwe. 
I believe that some of the support was for local purchase 
rather than U.S. food that was shipped there. We can do either 
in our programs.
    Much of our program is also focused on building resiliency 
in families and helping to make sure that the food they have is 
used so that they get the maximum nutritional benefit from it. 
So we have found that even though sometimes families have 
access to food they don't get the full nutrition out of it that 
they could. So there is a lot of effort to focus on helping 
families use the food that is available in the most nutritious 
ways, and also to just help them build their own stocks, build 
their own capacity to withstand these kinds of shocks that can 
happen cyclically at times.
    Ms. Bass. Is that part of Feed the Future? Or does Feed the 
Future function programmatically in Zimbabwe?
    Mr. Amani. Feed the Future does function programmatically. 
What I was describing is more related to our Food for Peace 
programs that focus on really the poorest and most at need 
populations in the country. Feed the Future is focused more on 
sort of the policy environment for future growth in the 
agricultural sector.
    It is focused on some key value chains that have the 
potential to increase in a significant way the availability of 
food and to help Zimbabwe be, as Chairman Smith mentioned, the 
bread basket--future bread basket--of Southern Africa.
    Ms. Bass. Thank you.
    Thank you, Mr. Chair.
    Mr. Smith of New Jersey. Just two very quick questions. It 
is my understanding that some $700,000 was put into SADC for an 
election observation. What did they do with it? Did they give 
it back? Did it get used in some other way?
    Mr. Amani. We sent up----
    Mr. Smith of New Jersey. Is it in escrow?
    Mr. Amani. We sent up a congressional notification for 
that, but ultimately, as I said, we didn't provide that money 
to SADC.
    Mr. Smith of New Jersey. It never went.
    Mr. Amani. Yes.
    Mr. Smith of New Jersey. Okay. That is good. And, secondly, 
we are going to be hearing from Arthur Gwagwa from the Zimbabwe 
Human Rights NGO Forum, which I know you are very familiar 
with. How treacherous is it for human rights organizations and 
researchers and advocates to operate in Zimbabwe today, as of 
right now?
    Mr. Amani. It has been a difficult situation for them to 
work in, and we could provide more information in a separate 
opportunity. But this is--it is a difficult situation.
    Mr. Smith of New Jersey. Could you provide that for the 
record at least? And is that a fear of being arrested, 
harassed, beaten? You know, I know of what has happened, and I 
just want to know right now, snapshot today, if I am a human 
rights researcher, what are my risks in Zimbabwe?
    Ms. Smith. The snapshot today is uncertain, and I suspect 
your next witness can probably give you the best read out of 
all in answer to that question. But it is certainly something 
we would be happy to follow up with you and your staff on.
    Mr. Smith of New Jersey. I appreciate that very much. And 
thank you for your patience in the lateness in starting, and 
thank you for your insights today.
    I would like to now ask our--unless you have anything you 
would like to add----
    Ms. Smith. Thank you, Mr. Chairman----
    Mr. Amani. Thank you.
    Ms. Smith [continuing]. Ranking Member Bass.
    Mr. Smith of New Jersey. I would like to now invite to the 
witness table our next two panelists, beginning first with Mr. 
Arthur Gwagwa, who works as an international advocacy 
coordinator with the Zimbabwe Human Rights NGO Forum, a human 
rights coalition of 19 members and the first organization in 
Zimbabwe to also have presence in the global north.
    He conducts research and advocates on the human rights 
situation in Zimbabwe in that role. He works closely with EU 
structures, the UNHRC, and of course our own Government. He is 
a lawyer by background, dually admitted to practice in both 
Zimbabwe and in England. Mr. Gwagwa is based in London, but 
frequently travels to Zimbabwe.
    Welcome, and thank you for making the trip here.
    We will then hear from Ms. Imani Countess, who is the 
Africa region program director for the American Center for 
International Labor Solidarity for the AFL-CIO. She is 
responsible for the overall programmatic and financial 
management of the program, which includes activities in 15 
African countries.
    Prior to this position, she served as the Zimbabwe country 
director for the National Democratic Institute for 
International Affairs with responsibility for program 
development, oversight, implementation of democracy 
strengthening programs, donor relations, and representation.
    Ms. Countess has previously held positions with the 
TransAfrica Forum, the American Friends Service Committee, 
Shared Interest, the Africa Policy Information Center, and the 
U.S. African Development Foundation.
    Thank you, both. Mr. Gwagwa.

    STATEMENT OF MR. ARTHUR GWAGWA, INTERNATIONAL ADVOCACY 
          COORDINATOR, ZIMBABWE HUMAN RIGHTS NGO FORUM

    Mr. Gwagwa. Thank you, Chairman Smith, Ranking Member Bass, 
and other committee members, for granting me this opportunity 
to testify before this House.
    I would request the committee to admit my written 
testimony, together with all of the annexes, as part of the 
record.
    Mr. Smith of New Jersey. Without objection, all testimony, 
any attachments, will be made a part of the record.
    Mr. Gwagwa. Thank you. I frequently visit Zimbabwe, and I 
was in Zimbabwe last week. I traveled extensively around the 
country. I met all civil society leaders, and I had interviews 
with members of the diplomatic community, including the United 
States, Canada, Norway, and SADC diplomats as well.
    In writing this statement, I adopted an evidence, you know, 
based approach. I did not really express my own opinion, but 
collected evidence from Zimbabweans about what, you know, they 
are thinking about the situation.
    So I have clearly set out the views in support of, you 
know, the current measures by the United States of America on 
Zimbabwe, and I have also clearly set out the views of those 
Zimbabweans who say, you know, that sanctions, you know, should 
be removed. And I have also clearly set out what I call the 
middle ground of, you know, those who are saying, yes, you 
know, the sanctions should go, but not immediately.
    In terms of, you know, our approach, you know, those who 
have instructed me to represent Zimbabwe civil society 
organizations today, we do not really have a very clear 
position to say, ``Well, U.S.A. should take this stance or 
should take that stance.'' It is up to the Government of 
America to make, you know, that decision, based on the evidence 
that we collected from, you know, the Zimbabweans.
    But my own assessment of the situation when I went, you 
know, to Zimbabwe recently in 2012 and 2011 is that currently 
it is a country that is, you know, going through a very 
difficult time where people are whispering their aspirations 
and expectations, and their disappointment with what happened, 
but they do not really have the freedom to talk about such 
issues in public for fear of persecution.
    I should commend, you know, the government, you know, for 
holding a violent-free election. You know, that is a huge 
credit, because not many people were killed, not many people 
were injured, and not many people were maimed in comparison 
with previous elections, particularly the 2008 Presidential 
runoff. That is a positive.
    But the credibility of an election cannot be assessed just 
on the basis of, you know, lack of violence, but other factors 
that are outlined in my statement. And one of the issues is 
outlined on page 3 of my testimony. That is, you know, the 
state of compliance with and breach of obligations under the 
national law, treaties, and conventions, that Zimbabwe is party 
to.
    Although cases of politically motivated matters, 
abductions, disappearances, torture, and intimidation have gone 
down in comparison to 2008, the situation is still worrying. 
The military is looming large. And people were not given a 
chance to express, you know, their democratic right to choose a 
government of their own choice, the widespread violations and 
separation of the right of freedom of association, assembly, 
movement, exercise of profession, including politically 
motivated reprisals.
    I interviewed the barristers, who are called advocates in 
Zimbabwe. And they were actually afraid that maybe the library 
where we are holding the interview was bugged. They could--if 
top lawyers in a country cannot freely express themselves, I 
think it is really worrying, because I am a lawyer myself who 
practiced in Zimbabwe for close to 10 years, and I am a 
barrister in the U.K., and I know how worrying it can be if 
lawyers are being dragged or being referred to the prosecuting 
authority by a judge of the High Court simply because they are 
exercising their right to practice their profession.
    And some of these young lawyers who are now leading the 
chambers, I trained them, you know, before I left Zimbabwe in 
2001. And it is really worrying to see an attack on lawyers 
that is an advocate--Beatrice Mtetwa, and other human rights 
defenders, including Jestina Mukoko, Abel Chikomo, who is 
another--the executive director of the Forum.
    Abel Chikomo next week is going to be in court being 
accused of running an illegal organization when in fact the law 
in Zimbabwe actually allows an organization to run on the basis 
of being a common law entity. It doesn't have to be registered 
under the Private Organizations Act.
    At the moment, there are fears that the government might 
resurrect the NGO bill. That might impair and maim, you know, 
the work that we are doing in trying to promote political 
pluralism. There is widespread violation of freedom of 
expression, access to information, as seen particularly during 
the past election where the MDC requested for--in order for 
them to assess their rights in the electoral court, but that 
right was denied.
    There are violations of property rights, and the government 
continues to make provocative statements that are leading to 
capital flight, and it is my submission before this committee 
that if the Government of Zimbabwe is serious about, you know, 
reengagement, it should stop--and I say categorically, stop 
making provocative statements that are leading the country on a 
downhill path, and they should stop insults, you know, 
targeted, you know, toward the diplomatic community.
    So in terms of the options that are open to the U.S.A., I 
would--there is a dossier of reasons why, you know, the 
sanctions--people are saying the sanctions should be removed. 
But the main reason being that, you know, the sanctions have 
actually given the regime, you know, choose to keep on, you 
know, tormenting its people.
    I spoke to the Embassy leaders. You know, they are holding, 
you know, the same argument. But my view is that when the world 
is retreating in fear, countries like the United States of 
America should not cower but should hold onto its principles 
and ideals that makes, you know, this nation great. It should 
stand as a moral leader to fill that particular vacuum that 
other people of, you know, weak spine are afraid, you know, to 
fill.
    So in terms of, you know, my own take, I would go for 
Secretary Clinton's action for action principle that--action 
for action, because we send a very wrong signal, not only to 
Zimbabwe but to the region and to the world, particularly in 
the current, you know, climate of instability, if were to 
reward intransigence.
    What the United States of America, you know, should do is 
to balance--to do a balancing act in terms of which they 
distinguish the state from the nation, safeguarding the 
economic interests of the nation of Zimbabwe and the people of 
Zimbabwe, but taking measures I think against those who are 
making, you know, their country of Zimbabwe, you know, to 
continue suffering.
    I have outlined, you know, the principles that I believe 
would actually be very, very relevant in elaborating on the 
action and action principle. In terms of the areas that I think 
the United States of America should focus on in terms of, you 
know, supporting Zimbabwe, economic recovery and resilience for 
the small holder farmers, but also ensuring that Zimbabwe 
diamonds are traded openly on the market in terms of, you know, 
the Kimberley Process, political pluralism, healing and 
reconciliation, rule of law and justice, citizenship 
participation, institutional reform, and access to services, 
including access to justice, culture, arts, and information 
technology.
    We have seen across the world how information technology 
can be an impetus in social change, democracy, and advancement 
of human rights. But we have also seen how information 
technology can be used by repressive governments in surveilling 
and oppressing, you know, people's rights. So information 
technology is a very crucial role that I think the United 
States of America can support.
    And, finally, the issue of culture. Ambassador Bruce 
Wharton is doing a fantastic job in that regard. He started, 
you know, the bicycle diplomacy. I actually happen to be an 
expert on cultural diplomacy, spoken a lot at the Institute of 
Culture and Diplomacy in Germany, and I want to see, you know, 
culture-to-culture interaction with the United States of 
America and Zimbabwe. We used to have Loyola University 
students coming to Zimbabwe. I think more of that, so that we 
have got an exchange of ideas and principles, that would make 
for a very strong world.
    Thank you.
    [The prepared statement of Mr. Gwagwa follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Smith of New Jersey. Thank you very much for your 
testimony.
    Ms. Countess.

STATEMENT OF MS. IMANI COUNTESS, REGIONAL PROGRAM DIRECTOR FOR 
                 AFRICA, THE SOLIDARITY CENTER

    Ms. Countess. Good afternoon. Chairman Smith, Ranking 
Member Bass, and members of the subcommittee, on behalf of the 
Solidarity Center Board of Trustees and staff, thank you for 
inviting us to testify today. I will give brief remarks on the 
subject and ask that my written testimony and annexes be 
submitted.
    Mr. Smith of New Jersey. Without objection, so ordered.
    Ms. Countess. Thank you. For over a decade, the Solidarity 
Center has worked with trade unions in Zimbabwe to strengthen 
their capacity to defend worker rights and advocate for 
sustainable economic policies and human rights protections.
    We, along with unions in Southern Africa, the AFL-CIO, and 
its allied organizations here in the U.S., are deeply concerned 
about the situation in Zimbabwe, and we welcome this 
opportunity to provide our perspective as a part of this 
hearing.
    Since the results of the July 31 elections were released, 
criticism, including that of our union partners, the Zimbabwe 
Congress of Trade Unions, the ZCTU, and the Labor and Economic 
Development Research Institute of Zimbabwe, LEDRIZ, has 
centered primarily on the deeply flawed electoral process. Yet 
in the midst of an unclear and highly polarized political 
environment, it is very easy to lose sight of the dramatic 
changes that have occurred in the country over the past 5 
years, including economic stabilization, largely peaceful 
elections, and a new constitution that has been endorsed by 
voters.
    Affairs have significantly improved from 5 or even 10 years 
ago, and building on the current strengths can lead to 
continued improvements in the economy as well as democracy and 
governance. So while the path ahead may seem troubled, 
objectively it is somewhat clear: There is a need for continued 
support for democratic institutions that are independent and 
that have integrity.
    Despite what may be seen as a step backward politically, 
organizations and groups are creating space for independent 
action and dialogue with an eye toward addressing the yawning 
social and economic needs of the country. Any analysis of 
Zimbabwe's way forward has to involve a discussion about how 
the country is to revive its once strong and diverse economy. 
And while there is no clear and obvious way forward, there are 
basic principles and steps that should be beyond dispute.
    First, the country is blessed with a wealth of strategic 
minerals, diamonds, and other commodities. However, the wealth 
generated by them is being utilized in inefficient and corrupt 
ways. The country's once strong manufacturing and agricultural 
sectors have steadily withered, and mining is not realizing its 
job creation potential or helping rebuild the foundation for a 
stable working class in the country.
    Zimbabwe has an opportunity to learn from the resource 
curves from which so many countries have suffered, and to work 
toward an open, transparent government where any citizen can 
see where and how income derived from natural resources is 
spent. Yet today Zimbabwe has no governmental institutions that 
promote transparency around the use of funds generated by 
natural resource mining.
    Zimbabwe clearly needs an economic plan and a trade plan 
that prioritize investments and industrialization and job 
creation. Africa's trade unions have emphasized the need for 
accelerating industrialization in Africa. They recognize that 
the current model, based largely on the export of raw extracted 
minerals, fosters dependency on Western and Asian markets, 
which leaves the continent exposed to numerous economic shocks 
and perpetuates the pattern of jobless growth, leaving Africa 
less stable and less secure.
    Last April, I met with the workers at the RioZim Empress 
Nickel Refinery in Kadoma, a town located about 100 kilometers 
south of Zimbabwe's capital city, Harare. There workers 
emphasized the need to add value to the country's natural 
resources. One said to me, ``If Zimbabwe only exported the raw 
mat'' or material ``from which nickel, copper, and cobalt is 
extracted, the 600 workers at our refinery would be jobless.''
    Those jobs pay between $200 and $1,700 per month and are 
highly coveted, given Zimbabwe's 80 percent unemployment. The 
refinery manager is also a strong proponent of 
industrialization. He is certain that industrialization is the 
only way to increase local employment. In fact, he says of the 
current refining process, ``We should go further. We should 
produce parts. We have nickel, iron ore, all the minerals one 
needs to produce alloys required to make parts. That is what we 
need to do.''
    Today the refinery produces nickel and copper sheets that 
are exported to South Africa and Western Europe. In October, 
the International Labor Organization, ILO, will send a high-
level technical team to Zimbabwe to implement recommendations 
made by a Commission of Inquiry on respect for freedom of 
association and the right to bargain collectively, because of 
the country's ongoing and systematic failure to respect freedom 
of association.
    Those failures led to the country's inclusion in the June 
2013 hearings at the ILO's Committee on Application of 
Standards as one of the 25 worst countries regarding labor 
rights violations because it has failed to uphold international 
labor standards and even failed to ensure compliance with its 
own national laws.
    In addition to issues of anti-union discrimination by 
companies, including state-controlled enterprises, violations 
include unfair dismissals, non-payment of wages, underpayment 
of wages, as well as worker harassment and intimidation.
    Hopefully, the Government of Zimbabwe will finally act on 
the ILO recommendations and demonstrate a willingness to uphold 
the rule of law, or it can continue to be seen as a major 
violator of worker rights by the international labor community. 
As the newly elected government in Zimbabwe has choices, so, 
too, does the United States, which is of course the reason for 
this hearing.
    In terms of policy, the U.S. Government has a variety of 
tools at its disposal that can be used to support rule of law 
and worker rights in Zimbabwe and to encourage the Government 
of Zimbabwe to do the same. These investments in Zimbabwe 
citizens and their institutions have and can continue to 
produce positive outcomes by leveling the playing field in ways 
that can lead to a more stable economy and one that ultimately 
provides benefits to all.
    Specifically, the U.S. Government should continue to 
actively support civil society institutions that move the 
dialogue in Zimbabwe and proactively focus on democratic 
reform, human rights, and absolutely vital economic reforms. 
Zimbabwe's labor movement and its allies will continue to push 
for the creation of greater political dialogue on economic 
reform and discussions among labor, business, and government, 
to move policy actions.
    It is too early to see if this dialogue will continue in 
the current economic environment. However, what is clear is 
that organizations and institutions that are moving these 
debates in terms of economic reform clearly need continued 
support.
    I thank you and welcome your comments.
    [The prepared statement of Ms. Countess follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Smith of New Jersey. Thank you, Ms. Countess. Let me 
ask you, with regards to the ILO team that is going in October, 
who do they expect to meet with? Is there a sense that they 
will be well received, or is this going to be, you know, a very 
difficult uphill battle for them?
    And along those same lines, Mr. Gwagwa, you might recall 
back in 2005 the African Union sent a human rights observer. He 
got to the airport and that's about as far as he got. He was 
sent back. Although a U.N. researcher, rapporteur for want of a 
better word, was sent on the housing issue and that report was 
devastating, and it did have an impact in at least exposing 
what Mugabe was doing when he was just literally leveling whole 
stretches of housing.
    So if you could, the ILO, what are the realistic 
expectations? Do you know who is heading it for the ILO?
    Ms. Countess. Unfortunately, I don't know who is heading 
the delegation. I did speak actually earlier this week with ILO 
representatives who made it very clear that it is their 
intention to travel in October.
    It is unclear at this point in time how they will be 
received. I would speculate, though, I will sort of go out a 
little bit on a limb, and say that the government will receive 
them. The government challenged vigorously earlier this summer 
their inclusion in the current case and made it very clear that 
they would like to see things differently. And so I don't have 
the sense that they would refuse entry to the ILO.
    Mr. Smith of New Jersey. Now, when labor leaders----
    Ms. Countess. Yes.
    Mr. Smith of New Jersey [continuing]. Meet with the ILO in 
country, what risk does that entail? You testified that there 
are some 150 workers that are part of organized----
    Ms. Countess. 150,000.
    Mr. Smith of New Jersey.--150,000, I am sorry, representing 
30 affiliates. Has there been growth in union membership, or 
decline? Is it static? And what happens to those who are 
already part of the union? You mentioned dismissal wages, but 
is that, you know, for people who are aspiring to become 
organized and part of the labor union, or people who are 
currently in a union?
    Ms. Countess. The union membership in Zimbabwe has declined 
significantly. It has declined because of the virtual collapse 
of the economy. There has been incredible loss in terms of 
every sector of the economy--textiles, agricultural production, 
mining, and so forth. And many of the areas that have seen 
growth--for example, mining--those workers for the most part 
are not unionized, and the level of violation of basic worker 
rights is extremely high.
    In terms of the level of risk, trade unionist, particularly 
trade union leaders, do experience a high level of risk, 
without a doubt. They are aware of that risk, and they assume 
the responsibility for representing workers, and they embrace 
that responsibility. So they don't run from the risk. In fact, 
one of our partners said they assume that one in five of their 
staff is a part of the security sector, and there to inform.
    And so there is a level of maturity, a level of awareness, 
but overall a high level of commitment to advancing the cause 
of worker rights in the country.
    Mr. Smith of New Jersey. Can I just ask you, because I know 
the South African trade unions have been a great ally of the 
trade unions in Zimbabwe, has that influenced the South African 
Government to be more robust in its protestations?
    Ms. Countess. There are very clear examples in the past of 
COSATU in particular being able to use its power, its muscle, 
to change or nudge changes in the policy of the South African 
Government. I think that given the current situation that we 
are in with the election in Zimbabwe and the response of the 
South African Government, we clearly are at a point in time 
where there needs to be an intensification of the dialogue 
between the trade unions of South Africa and Zimbabwe.
    One of the things that the trade union regional groupings 
took--was able to organize prior to the elections was its own 
observation mission that included over 20 trade union leaders 
from about 13 countries. They came, they observed, in 
partnership with the ZCTU, and they came out with a report that 
was extremely critical and they applauded the country for the 
peaceful elections but noted that there was no possibility for 
free and fair elections and that the elections were not 
credible.
    So you have got the trade unions in the region who are of 
an opinion that the election was not credible, and they have 
communicated by and large their views to their governments and 
will continue to do so.
    Mr. Smith of New Jersey. Let me ask you, Mr. Gwagwa, in 
your testimony you say, ``Now is not the time for the U.S.A. to 
cower or whisper on Zimbabwe or hide Zimbabwe behind the Syrian 
agenda,'' which I think is a very important point. Very often 
we fail to multi-task the way we should, and next thing you 
know very important abuses and deteriorations in other 
countries don't get the focus that they ought to.
    One of the reasons why we are having this hearing today is 
to keep our focus as a committee and to, you know, dialogue 
with our executive branch but also to ask your input.
    But let me--have we made Zimbabwe a sufficient priority in 
our foreign policy? You did speak very well of our Ambassador, 
and I am sure he will be glad to hear that. But if you could 
elaborate on the overall policy. Is it as robust as you would 
like it to be?
    Secondly, if you could comment, as I mentioned a moment ago 
about, is it time for the AU? You know, in 2005, the human 
rights officer tried to get in, didn't get in, to resend, you 
know, a person to observe human rights. It might have a 
chilling effect even on any deterioration, just like I do 
believe the ILO mission will have nothing but positive impact 
going forward.
    And you did speak of flight post-election. Are those 
properties then confiscated by the government when people 
leave? And how widespread is that? Are people really uprooting 
and leaving out of fear? If you could.
    Mr. Gwagwa. In terms of the U.S. policy, while I think, you 
know, the U.S. has really been doing enough, because there are 
other fishes to fry. And we can't expect--you know, the U.S. 
cannot be putting all of its focus on Zimbabwe when there are 
people dying in Syria, in Egypt, and other nations of the 
world.
    But the overall impression is that, you know, Zimbabwe is a 
slow-burning situation, which is why it is on the back burner 
of, you know, many countries', you know, foreign policies, 
because you can't compare Zimbabwe to Syria. You can't compare 
it to Egypt, because you don't see people dying in the streets, 
you don't see a lot of people being--because, you know, there 
are factors or--the situation--the factors in Syria, Egypt, and 
Zimbabwe are totally different, because Zimbabweans are peace-
loving people.
    We are long-suffering, and we know that happened between 
1965 and 1980. We are not a fighting country, but it does not 
mean that we are not angry. So because of that, it is a slow-
burning situation. Sometimes, you know, people say, ``Well, 
there are better countries to be focusing on.''
    But in terms of, you know, regional stability and in terms 
of within the region, I actually think, you know, they should 
be more focused on Zimbabwe because I have seen the reactive 
foreign policies where we--governments want to go and wage wars 
instead of, you know, taking preventative measures so that, you 
know, such atrocities, you know, do not take place in the first 
place. So, yes, the U.S. has been doing, but it could do better 
in terms of engagement.
    And, number two, the issue of, you know, sending another 
representative, Zimbabwe has been notoriously known, even at 
the United Nations Human Rights Council for ignoring requests 
for visits, special rapporteurs.
    In 2010, you know, Manfred Nowak, who was, you know, 
deported at the airport, and we worked with special 
rapporteurs. Most of them have been ignored, and I actually 
think it is high time we had special rapporteur, for example, 
on independence of judges and employers to visit, you know, the 
country.
    And then, third question on the human rights violations, 
there was serious escalation from August 2012 to about, you 
know, June, May/June. But the reason why there was a little or 
sort of like a retreat by the government in terms of their 
attack on human rights defenders was that they switched their 
attention from attacking human rights defenders to electoral 
manipulation.
    We begin to see central intimidation, judicial complicity, 
where if a judge attacks you you can't say anything in public 
because you will be down for contempt of court. So it became 
more central because it is the truth of trade that, you know, 
the government--they employed new tools. But now we see a rise 
in attacks again.
    And I could talk of maybe the MDC's organizing secretary, 
Morgan Komichi, whose crime was simply that he picked a ballot 
paper and he gave it to the Election Commission. He is 
languishing in detention. Jestina Mukoko--the organization is 
facing, you know, delisting. Zimbabwe Human Rights Forum is 
facing attacks. Even Morgan Tsvangirai himself last week at the 
funeral of Enos Nkala in Bulawayo, the leader of the war 
veterans said Tsvangirai should not return to his rural home. 
That's really scary.
    So in terms of the attacks, there is a lot of intimidation. 
And it is likely to increase unless, you know, something is 
done.
    Thank you.
    Mr. Smith of New Jersey. Has any request been made to the 
U.N. to investigate this intimidation of lawyers and judges? 
Because, you know, we could do that here as a committee, and 
certainly join you. That is something we could do--you know, 
collaborate with you.
    Mr. Gwagwa. In the past, because our organization was 
actually responsible for--well, was part of that team that 
lobbied Minister Patrick Chinamasa, you know, now planning to 
visit Zimbabwe in May 2014 as part of the negotiations. But we 
have requested--what we have done is because the government 
rejects the applications, you know, for country visits, so what 
we end up doing is we invite the special rapporteurs to attend 
our annual events, particularly the introduction of human 
rights day on 10 December.
    But the downside to that is that if they are invited for a 
working arrangement because they haven't been invited by the 
government, they cannot comment on the situation in the 
country. They can only make anecdotal, you know, references.
    Mr. Smith of New Jersey. I see.
    Mr. Gwagwa. So I think, you know, there is actually--if the 
government is saying--is committed to reforms, what are they 
afraid of? I actually think, you know, the special rapporteur, 
independent of judges and lawyers, should come into the 
country. And then also, Frank LaRue, the Special Rapporteur on 
the Promotion and Protection of the Right to Freedom at 
Expression and Opinion, which is the mandate that also covers 
elections and access to information.
    Mr. Smith of New Jersey. One last question before yielding 
to Ms. Bass. When is Zimbabwe's periodic review at the Human 
Rights Council? Is that coming up anytime soon?
    Mr. Gwagwa. I actually happen to be part of their civil 
society team, you know, that does that. Zimbabwe was reviewed 
in October 2011, and the report was adopted on the 12th of 
March last year, 2012. So the midterm review is going to be in 
March of next year.
    So the government is preparing for that, and we are 
preparing for that. And thank goodness we have been working 
quite well with the government on that, in terms of the UPR, 
because the UPR doesn't threaten, you know, the government. You 
know, Minister Patrick Chinamasa has been doing a fantastic 
job. We will wait to see how Emmerson Mnangagwa is going to 
cooperate with, you know, civil society.
    But I am going to be having a Skype interview with the 
United Nations next week on maybe strategic areas, where we 
think we need support. So I couldn't go to the Human Rights 
Council session, which is undergoing as we speak, because of 
this commitment. But we have a Skype interview to discuss 
strategy in terms of where the country goes from now.
    Ms. Bass. Thank you. I just have a couple of questions. I 
wanted to know your opinion, both of you, about the African 
Union and the African Union's emphasis and discussion about 
governance, supporting, promoting, good governance. And also 
maybe a new tenure in the AU where they in the past had wanted 
to have real hands-off on governance.
    And I am wondering, do you see the role being any different 
in Zimbabwe? I understand that the AU accepted the results of 
the elections, but I mean more in terms of supporting the 
development of better governance in Zimbabwe.
    Ms. Countess. It is a really difficult question, because 
what we all saw in terms of both the AU, in SADC, and South 
Africa's response to the elections, is that these bodies, and 
South Africa as a country, have prioritized peace in terms of 
an absence of violence.
    And it is very difficult moving forward to see to what 
extent these international bodies and countries can be 
encouraged to prioritize accountability. Already, within just a 
matter of weeks, I do know that some civil society 
organizations and trade unions in Southern Africa have 
organized a new network, a network that is designed to pressure 
SADC to be more accountable to the will of the majority of the 
peoples of the region.
    It is called ``The SADC We Want,'' and it is new, and it is 
just rolling out its agenda. And it is unclear what impact it 
will have.
    But what I do believe, and it is echoed in my comments, is 
that the only way in which we can see an increased 
accountability of AU, SADC, South Africa, and other governments 
is through citizen engagement and citizen power, including 
worker power. And until we get more of that----
    Ms. Bass. Right.
    Ms. Countess [continuing]. It is not clear.
    Ms. Bass. Got it.
    Mr. Gwagwa. Just briefly, I support what she is saying, 
because I think particularly the subject places relationships 
above principles. Although there have been changes of--a change 
in government in different countries, but, you know, the issue 
of liberation, war, solidarity still looms large in the region.
    And also, the culture--patriarchy, where you cannot be seen 
to disrespect your elders, even us I think within civil society 
we face the same issue. You meet Zimbabwean diplomats across 
the world. They say, ``Young man, who do you think you are?'' 
But the world is changing.
    I am same age as David Cameron, George Osborne, and even 
President Obama. And so the world is changing. I think African 
leaders have to change in terms of their cultural paradigm, 
that you only--you need a white hair in order for you to be a 
leader.
    AU is still problematic as well. Mrs. Dlamini Zuma, when 
she went to Zimbabwe prior to the elections, you know, she was 
partisan. She was clearly pros here, because she is part of 
that liberation movement.
    We see what happened when the foreign affairs advisor to 
Jacob Zuma wanted to be outspoken regarding what is happening 
in Zimbabwe, how she was silenced and how Botswana is being 
sidelined as a result of his unprincipled stance. But I see 
signs of change across Africa through social change which is 
being prompted by ICTs and globalization.
    I see young people driving social change, so I think there 
is need for investment in that regard. And there are also 
structures like the African Commission for Human and People's 
Rights, although some Commissioners maybe believe in their--may 
be--shall I say, I see quite a diversification in terms of 
Commissioners. Commissioners are really committed to human 
rights.
    So I think working with the African Commission, African 
Court on Human and People's Rights, and other structures within 
the African Union can actually help to support the calls for 
good governance and democracy. But above all, we need social 
change. That is investment in social change projects, 
participatory democracy projects that empower citizens and 
reinvigorating our democracy in Africa.
    Thank you.
    Ms. Bass. Thank you. And then, a final question is about 
the impact of U.S. sanctions now, whether or not they--well, 
one, what you think of the impact, and how you have seen the 
impact on the ground; but, two, what do you think needs to be 
changed? Should it be increased? Expanded? Decreased? What?
    Mr. Gwagwa. Well, to be honest, my organization doesn't 
have a view on sanctions. And we also do not usually want to 
talk about it, I think partly because of, you know, the fear 
that it can actually be banned, you know, from Zimbabwe as a 
result of----
    Ms. Bass. Okay.
    Mr. Gwagwa [continuing]. Sanctions. So I won't say--because 
we don't have a stance on the issue of sanctions, but I 
provided a dossier of what Zimbabweans are saying on sanctions, 
from page--it is page 19 to 21.
    There is a strong view that the sanctions should go, but 
not because there have been reforms in Zimbabwe, but the major 
reason is that some people actually think that the sanctions 
have actually helped the government to--because the issue about 
the government is that they are cushioned by diamond revenues, 
and their children continue to go to Western universities and 
to good schools like, you know, St. George's, Prince Edward, 
those top schools within the country.
    So in terms of real impacts on the politicians, it has been 
very minimal. But, and there are other reasons, again, that the 
bureaucrats who preside over institutions like Zimbabwe 
Election Commission, the High Court, and all of that, those 
people were affected by sanctions, maybe not really affected 
but some--sorry, some of them were affected by sanctions.
    Maybe they saw their standard of living maybe going down. 
So they can never forgive the West, I think on the issue of 
sanctions. So the danger is that when we want to work with 
them, they might say, ``Well, we don't want to work with you 
because you guys you push for sanctions.''
    So, in other words, the agenda for institutional reform is 
going to be very difficult in the presence of sanctions, 
because expecting the same people to reform institutions is not 
different from expecting Emanghe to preside over an agenda to 
abolish a forest. It is another way of saying, reform the 
institutions, but, you know, there are sanctions.
    Ms. Bass. Right.
    Mr. Gwagwa. So my personal view is that maybe they should 
go. It is a difficult view, but I think maybe they should go 
not for--to appease the government----
    Ms. Bass. No. You are saying because it is a rallying point 
for the government.
    Mr. Gwagwa. Yes. Because it is a rallying point for the 
government.
    Ms. Bass. I understand.
    Ms. Countess. I would just want to echo what has just been 
said. The sanctions really have very little impact when we are 
talking about travel restrictions on 100 or so people and 
commercial licensing restrictions on a handful of enterprises. 
They don't have a significant impact on the country. They are 
essentially a red herring.
    They are used by the government, by the Government of 
Zimbabwe, to--you know, as a real rallying point, they enable 
the government to use the West as sort of like a whipping post.
    The previous Ambassador used to really challenge the 
Government of Zimbabwe on this question of sanctions, and he 
would remind the government that during the colonial era when 
Rhodesia was sanctioned, the U.S. imposed chrome sanctions and 
other sanctions against the Government of Rhodesia. The 
Rhodesian economy actually grew because they were forced to do 
more with less. And so, again, the previous Ambassador kind of 
threw that back, without much response.
    I don't want to speak on behalf of the trade unions of 
Zimbabwe. But having lived there for several years, what I can 
certainly say, based on my personal experience, is that there 
is very little impact.
    Ms. Bass. Thank you.
    Mr. Smith of New Jersey. Thank you very much.
    And, Ms. Bass, thank you.
    Mr. Gwagwa, thank you, and Ms. Countess, for your very, 
very enlightening, very incisive answers. Your testimony really 
does help this committee, and I hope it helps all listeners, 
including in the administration who, you know, benefit from 
your counsel.
    I won't ask you for an answer because you did give a very 
elaborate answer on sanctions. I have believed for a long time 
in sanctions that are even more microtargeted--I have a bill 
pending right now called Jacob's Law that seeks to hold human 
rights abusers accountable.
    It is even more narrow if they abuse American citizens, 
although the Magnitsky Act was one of those with--vis-a-vis 
Russia that seeks to pick out individuals, and if they are 
complicit in crimes, human rights abuse, they and they alone 
are the ones, not a more blanket sanction. And I think we are 
trending in human rights policy toward more of that, because 
that is a more effective way of doing it.
    And so but I do thank you for your testimonies. They were 
extraordinary. If you have anything you wanted to add before we 
conclude? Yes.
    Mr. Gwagwa. Yes. All I can say is I think the issue of 
sanctions is entirely up to your government to make a decision 
on that. I think, as you have said, I think maybe a new 
approach, we have been working with the EU on that--I think a 
much more responsive approach, you know, which is based on 
compassion I think for the people, because politicians all 
across the world, you know, sometimes they are not--sometimes 
they have got their own, you know, narrow agendas. But it is a 
question of maybe, how do you look beyond politicians and have 
compassion for the people, but it is a difficult balancing act.
    Mr. Smith of New Jersey. Very good.
    Mr. Gwagwa. No one could ever get it right. The EU is 
struggling with the same question.
    Mr. Smith of New Jersey. It is a very tough question. I 
have been here 33 years. I voted to impose sanctions on South 
Africa. As a matter of fact, in this room when we had that 
vote, I was the only Republican who voted for it, but there 
were people, including the Reagan administration, who argued 
that it would hurt the average South African even more. And I 
didn't dismiss that argument. I thought it had some validity, 
but apartheid was such an abomination that it seemed a more 
blanket sanction was warranted. But they are tough calls.
    So I do thank you, again, for your insights on all things 
related today. And without further ado, the hearing is 
adjourned.
    [Whereupon, at 1:59 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
